TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Opportunities Exist to Improve the
                Processing and Accuracy of Electronically
                   Filed Individual Income Tax Returns



                                   April 20, 2007

                         Reference Number: 2007-30-063




 The Treasury Inspector General for Tax Administration (TIGTA) has designated
 this audit report as Limited Official Use pursuant to Chapter III, Section 2 of the
 Treasury Security Manual (TD P 71-10) entitled, “Limited Official Use Information
 and Other Legends.” Because this document has been designated Limited
 Office Use, it may be made available only to those officials that have a need to
 know the information contained within this report in the performance of their
 official duties. This report must be safeguarded and protected from unauthorized
 disclosure; therefore, all requests for disclosure of this report must be referred to
 the Disclosure Section within the Treasury Inspector General for Tax
 Administration Office of Chief Counsel.




 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                          Limited Official Use
                Opportunities Exist to Improve the Processing and Accuracy of
                     Electronically Filed individual Income Tax Returns



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
L. Jeff Anderson, Audit Manager
Kyle D. Bambrough, Lead Auditor
Bill R. Russell, Senior Auditor




                                          Limited Official Use                          Page 2
